No. 20-112

 

IN THE
Supreme Court of the United States

SHERRY HERNANDEZ,
Petitioner

Vv.

PNMAC MORTGAGE OPPORTUNITY
FUND INVESTORS, LLC; et al.,
Respondents

On Petition for Writ of Certiorari
to the California Court of Appeal,
Second Appellate District, Division Five

PETITION FOR REHEARING OF DENIAL
OF PETITION FOR WRIT OF CERTIORARI

Certificate of Compliance

As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,826
words, excluding the parts of the document that are exempted by Supreme Court Rule

I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 4, 2020.

LZ

Rhonda Hernandez

 
